No.

IN THE
SUPREME COURT OF THE UNITED STATES

TIM SUNDY
— PETITIONER
(Your Name)
VS.
Friendship Pavilion Acq. Co. LLC, et al.

RESPONDENT(S)

PROOF OF SERVICE
I,

Tim Sundy

, do swear or declare that on this date,
20

_, as required by Supreme Court Rule 29 I have

served the enclosed MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS and
PETITION FOR WRIT OF CERTIORARI on each party to the above proceeding or that party’s
counsel, and on every other person required to be served, by depositing an envelope containing
the above documents in the United States mail properly addressed to each of them and with
first-class postage prepaid, or by delivery to a third-party commercial carrier for delivery
within 3 calendar days.
The names and addresses of those served are as follows: Wiliam Peters. Office of AG, 40 Capitol Square SW,
Atlanta, GA 30334: Wiliam Blalock, Stewart. Melvin & Frost LLP, PO Box 3280, Gainesville. GA 30503: Karen
Woodward, Cruser, Mitchell, Novitz, Sanchez, Gaston & Zimet, LLP, 275 Scientific Drive, Meridial II, Ste 2000,
Norcross, GA 30092: Friendship Pavilion Acquisition Company LLC, do CT Corporation, registered agent, 289 S.
Culver St., Lawrenceville, GA 30046: Arsenal Real Estate Fund ll-IDF, LP 158 Route 2016, #3, Gladstone, NJ
07934, Gary Picone, 755 Wllowsprinqs Blvd, Franklin, TN 37064: Thomas Ling, PGIM Real Estate, 1540
Broadway, 36th FI, NY, NY 10036: Michael Weinstein, MBW Law LLC, 3050 Amwiler Road, Suite200-C, Atlanta,
GA 30360: GDOT;

I declare under penalty of perjury that the foregoing is true and correct.
Executed on

RECE5VED

, 20 ZV

AUG 1 8 2020
OFFICE OF THE CLERK
SUPREME cqurtus

1

\

t

I-- J

(Signature)

